This report presents the conclusions of the OIG. The findings and recommendations
presented in this report do not necessarily represent CPB’s final position on these
matters. CPB officials will make a final management decision on the recommendations
in this report in accordance with established CPB audit resolution procedures.

We performed our examination in accordance with Government Auditing Standards for
attestation engagements. Our scope and methodology is discussed in Exhibit D.


                                   BACKGROUND
NYPR’s mission as stated on its website is "to make the mind more curious, the heart
more tolerant and the spirit more joyful through excellent radio programming. NYPR
station’s WNYC 93.9 FM and 820 AM are New York's flagship public radio stations,
broadcasting programs from NPR, American Public Media, Public Radio International
and the BBC World Service, as well as a wide range of award-winning local
programming.”

According to its website, WNYC is the most listened-to radio station in Manhattan and
the most listened-to public radio station in the country. Established in 1924 as a City of
New York municipal radio station, the WNYC Foundation acquired the broadcast license
from the city in March 1997 and is now run as New York Public Radio, a community
station with a membership of more than 160,000 members. WNYC also operates
WQXR, 105.9 FM, New York City’s only all-classical music station.

In 2011 NYPR purchased the four New Jersey state-operated FM radio stations. These
stations carry WNYC-FM programming as well as New Jersey local programming of
interest to the state’s residents.

      CPB Community Service Grant

CSG award amounts are determined by the NFFS reported by a station on its AFR.
The CSG calculation process starts with amounts appropriated for the radio CSG pool
adjusted by the base grant, distance, and local grant amounts. The funds that remain
are called the Incentive grant pool. The Incentive Rate of Return (IRR) is calculated by
dividing the Incentive grant pool by the total amount of NFFS claimed by all radio
stations in the system. The IRR is then multiplied by a station’s reported NFFS to
calculate the incentive award amount of the station’s total CSG. There is a two-year lag
between the reported NFFS and CPB’s calculation of the fiscal year’s CSG award
amount. CPB used the NFFS that NYPR claimed on its FY 2011 AFR to determine the
amount of the FY 2013 CSG awarded to the station. NYPR’s annual CSG award for FY
2011 totaled $3,253,518 and for FY 2012 totaled $3,171,434, as itemized in Exhibit A.
Each CSG grant can be spent over a two-year period.




                                            2
NYPR’s FY 2011 and 2012 AFRs reported total revenues of $53,116,692 in FY 2011 and
total revenues of $54,608,157 in FY 2012, per Exhibit B. NYPR reported NFFS of
$42,735,869 in FY 2011 and $44,039,788 in FY 2012, as presented in Exhibit C.


                               RESULTS OF REVIEW

We examined NYPR management’s assertions of compliance with CPB’s CSG grant
agreement terms, Certification of Eligibility requirements, Act requirements, NFFS
financial reporting guidelines, and the expenditure of funds for the two years ending
June 30, 2011 and June 30, 2012. NYPR management is responsible for compliance
with these requirements. Our responsibility is to express an opinion on management’s
assertions about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and, accordingly, included examining, on a test
basis, evidence about NYPR’s compliance with those requirements and performing
such other procedures as we considered necessary in the circumstances. We believe
that our examination provides a reasonable basis for our opinion. Our examination
does not provide a legal determination on NYPR’s compliance with specified
requirements.

Our examination found that NYPR:

   •   over-stated NFFS by $44,574 in FY 2011, which resulted in a CSG overpayment
       of $2,736 in FY 2013; and
   •   did not fully comply with Communications Act requirements for making
       information available to the public by providing: a) written statements explaining
       the reasons for closing a public meeting, and b) other non-CSG CPB grant
       financial reports.

In our opinion, except for the noncompliance issues described above, NYPR has
complied with the aforementioned requirements for the two years ending June 30, 2011
and June 30, 2012.


                     FINDINGS AND RECOMMENDATIONS

AFR Over-Stated NFFS for In-Kind Contribution Services

CPB Financial Reporting Guidelines, Section 2.5.2 Special Criteria for In-kind
Contributions Included as NFFS, states, “In addition to the source, form, purpose and
recipient criteria, and the requirement of recognition in the audited financial statements,
there are three specific criteria an in-kind contribution must satisfy to be eligible as
NFFS: 1) it must meet CPB’s valuation requirement; 2) it must meet CPB’s

                                             3
documentation requirements; and 3) the station would typically need to purchase the
contributed goods or services had they not been donated.

Our review of NFFS reported on Schedule C of the AFR identified in-kind professional fee
revenues of $22,388 for legal services and in-kind other services of $22,186 for local
advertising. However, these transactions were actually expenses erroneously reported
as revenues on the AFR.

NYPR officials advised us that this was a result of a mistake in preparing the AFR from
the source Trade spreadsheet that tracks all trades and in-kind activity used to report
barter income and expense on the audited financial statements. Although the station’s
AFR Schedule C agrees in total to revenue recognized in the audited financial
statements, the AFR preparer misclassified amounts reported on AFR Schedule C lines
1.A for legal services and 3.C for local advertising that should not have been reported
as NFFS revenue.

These misstatements totaling $44,574 resulted in excess CSG payments of $2,736
under the FY 2013 grant.

      Recommendations

1) We recommend that CPB officials require NYPR to:

   a) repay CPB $2,736 in FY 2013 CSG over-payments; and
   b) submit a revised AFR to adjust FY 2011 NFFS revenues.

      Management Response

NYPR’s response agreed with this finding and our recommendations.

      OIG Review and Comment

Based on NYPR’s response we consider recommendation 1a and 1b resolved but open
pending NYPR’s repayment of $2,736 and submitting a revised AFR for FY 2011.


Compliance with the Communications Act

Our examination found that the NYPR did not fully comply with Communication Act
requirements for making documents available to the public related to documenting the
basis for closing public meetings and making other CPB grant financial reports available
for review. While NYPR had operating procedures in place to address these
requirements that they followed, we found that neither policy fully met CPB’s guidelines.




                                            4
       Open Meeting Requirements for Closed Meetings

Our review of NYPR’s closed meetings of the Board of Directors and related committee
meetings found that NYPR did not prepare a document that explained the reasons for
closing a public meeting. Further, NYPR’s policy did not specifically address when it
would prepare a document that explained why a meeting was closed.

Section 396(k)(4) of the Act, 47 U.S.C. § 396(k)(4) and CPB guidelines Section II. 4,
of the Open Meetings requirements for “Explanation of Closed Meetings” apply. The
statute provides exceptions to the open meeting requirement. Closed sessions can be
conducted to consider matters relating to “…individual employees, proprietary
information, litigation, and other matters requiring the confidential advice of counsel,
commercial or financial information obtained from a person on a privileged or
confidential basis, or the purchase of property or services whenever the premature
exposure of such purchase would compromise the business interests of any such
organization.” Further, the statute also provides that “the organization shall … (within a
reasonable period of time) make available to the public a written statement containing
an explanation of the reasons for closing the meaning.”

Further, CPB guidelines reiterate that if a session is closed to the public pursuant to
these statutory exceptions, a written statement containing an explanation of the reasons
for closing the meeting must be made publicly available within a reasonable period of
time. The explanation for the closing of a meeting preferably should use the words of
the statute. CPB guidelines require that each closed meeting of the Board of Directors,
respective committees, and the Community Advisory Board (CAB) need to prepare a
document explaining the reason for the closed meeting.

Station officials explained that their practice was to document the basis for closing the
meeting in the meeting’s minutes. When they receive a request for why the meeting
was closed they would prepare a document citing the reasons specified in the meeting’s
minutes as the basis for closing meeting. They also said that they had not received a
request for information on closed meetings in years. We reviewed the closed meeting
minutes following the implementation of its policy and found that the basis for closing
the meeting was documented in the minutes.

       Making Other Financial Reports Available to the Public

Our examination of financial records made available to the public during our field visit
found that only two of seven CPB (non-CSG) grants with financial activity during FY
2012 were available for public inspection. NYPR’s open financial policy required the
station to make only open CPB grant financial reports available for public inspection and
the five reports that were not available were closed during the fiscal year. NYPR’s open
financial records policy did not adequately address CPB requirements, because the
station did not provide the public with all financial reports submitted to CPB with respect
to the periods covered by the current AFR and audited financial statements already
included in the file maintained for public inspection. Without this additional information,

                                             5
the public would have an incomplete picture of the extent of CPB’s financial investment
during the respective periods.

Section 396(k)(5) of the Act, states:

   Funds may not be distributed pursuant to this subsection to any public
   telecommunications entity that does not maintain for public examination copies of
   the annual financial and audit reports, or other information regarding finances
   submitted to the Corporation pursuant to subsection (l)(3)(B).

Further, CPB guidelines Section III C. requires stations to make the following types of
records available for public inspection:

   Other information regarding finances submitted to CPB related to any funding
   agreement with CPB that requires a financial report.

NYPR officials also indicated that they had spoken with CPB officials regarding the
practice of providing financial information for only open CPB grants and had submitted
its policy to CPB in response to a previous OIG survey in 2011.

Our discussions with CPB officials acknowledged that at least current CSG AFRs
should be maintained in the files because CSGs are two-year funds, but stated CPB
provided no further guidance regarding making available other CPB grant financial
information. Further, we found no evidence that CPB approved the policy submitted in
response to the previous OIG survey. We think it is reasonable to require that all CPB
grant financial reporting information be available for public inspection consistent with the
time periods covered by the financial statement audit report and the AFRs already being
made available to the public.

                              *         *   *       *   *   *

The station’s lack of compliance with these requirements deprived the public of the
required information envisioned by the Act and CPB guidelines. This information
provides transparency, as well as informs the public about financial activities and how
the board and committees operate.

       Recommendations

2) We recommend that CPB officials require NYPR to revise its current open meetings
   and open financial reports policies to:

   a) prepare a written statement documenting the reasons for closing a public
      meeting within a reasonable time after the closed meeting was held to explain
      why the meeting was closed;
   b) maintain all CPB grant financial reports for open and closed grants that had
      activities during any periods covered in the financial statement audit report and

                                                6
      AFRs it makes available to the public; and
   c) submit revised policies to CPB for its review and approval.

       Management Response

NYPR’s response to recommendation 2a stated that it will alter its open meetings policy
to require that a separate document be created for each closed meeting that explains
the basis for closing the meeting. Further, this document will be kept in its files to meet
the requirement of making the explanation “publicly available.” NYPR’s response to
recommendation 2b stated that it will alter its open financial records policy to require
that all financial reports submitted to CPB with respect to the periods covered by the
current AFR and audited financial statements must be included in the file maintained for
public inspection.

       OIG Review and Comment

Based on NYPR’s response we consider recommendations 2a and 2b resolved but
open pending its revisions of its open meetings and open financial records policies.
NYPR’s response did not address recommendation 2c and remains unresolved and
open pending CPB’s management decision resolving this recommendation.




                                             7
                                                                    EXHIBIT A


                      CPB Payments to WNYC-FM
                      July 1, 2010 – June 30, 2012

  Date                           Grants:              Amounts
                                FY 2011
11/16/2010   Community Service Grant – Restricted       $426,211
11/16/2010   Community Service Grant – Unrestricted    $1,200,548
2/18/2011    Community Service Grant – Restricted        $426,211
2/18/2011    Community Service Grant – Unrestricted    $1,200,548

                               Sub-Total               $3,253,518

                                FY 2012
1/12/2012    Community Service Grant – Restricted       $413,872
1/12/2012    Community Service Grant – Unrestricted    $1,171,845
3/02/2012    Community Service Grant – Restricted        $413,872
3/02/2012    Community Service Grant – Unrestricted    $1,171,845

                               Sub-Total               $3,171,434


                            Total Payments             $6,424,952




                                          8
                                                                                            EXHIBIT B


                               Annual Financial Report
                For the Period Ending June 30, 2011 and June 30, 2012

Line                                   Description                                FY 2011       FY 2012
          Schedule A:
          Source of Income:
    1.    Amounts provided directly by federal agencies                              $283,467      $753,798
  2.A.    CPB – Unrestricted CSG                                                    2,407,603     2,344,102
  2.B.    CPB – Digital Projects Grants                                               -98,533             0
  2.C.    CPB – Restricted CSG                                                        845,915       827,744
  2.E.    CPB – all other funds                                                     1,228,710     1,193,174
  2.G.    NPR – all payments except pass-through payments                             412,104       203,404
  2.H.    Public broadcasting stations – all payments                                 148,042       143,490
   2.I.   Other PBE funds                                                           3,098,913     2,403,111
          Local boards and departments of education or other local government
    3.                                                                                 82,670        93,700
          or agency sources
          State boards and departments of education or other state government
    4.                                                                                113,544       277,419
          or agency sources
    8.    Foundations and nonprofit associations                                   10,412,007     9,870,519
    9.    Business and industry                                                     6,331,947     7,303,245
   10.    Memberships and subscriptions                                            17,729,320    18,282,017
   12.    Subsidiaries and other activities unrelated to public broadcasting        1,260,074       966,101


          Form of Revenue:
   14.    Special fundraising activities                                              654,909       859,410
   15.    Passive income                                                               68,582        95,479
          Gains and losses on investments, charitable trusts and gift annuities
   16.                                                                                 48,051       372,001
          and sale of other assets
   17.    Endowment revenue                                                           108,696         2,346
   18.    Capital fund contributions                                                3,501,637     2,708,772
   19.    Gifts and bequests from major individual donors                           3,933,449     4,595,185
   20.    Other direct revenue                                                        545,585     1,313,140
   21.    Total Revenue                                                           $53,116,692   $54,608,157




                                                        9
                                                                                    EXHIBIT B (cont’d)


                              Annual Financial Report
               For the Period Ending June 30, 2011 and June 30, 2012

Line                                Description                                      FY 2011       FY 2012
         Adjustments to Revenue:
   22.   Federal revenue from line 1                                                   $283,467      $753,798
   23.   Public broadcasting revenue from line 2                                       8,042,754     7,115,025
         Other revenue on line 21 not meeting the source, form, purpose, or
   25.                                                                                 2,059,254     2,382,757
         recipient criteria to be included in NFFS
   26.   Other automatic subtractions from total revenue:
 26.D.   Realized gains/losses on investments(other than endowment funds)                  2,800      116,035
         Unrealized investment and actuarial gains/losses (other than
 26.E.                                                                                   45,251       255,966
         endowment funds)
         Realized and unrealized net investments gains/losses on endowment
 26.F.                                                                                     8,671         2,346
         funds
   27.   Total Direct Non-Federal Financial Support                                  $42,674,495   $43,982,230


         Schedule C:
    1.   PROFESSIONAL SERVICES
             A.   Legal                                                                 $22,388        $9,760
    2.   GENERAL OPERATIONAL SERVICES
             A.   Annual rental value of space                                                 0         9,350
    3.   OTHER SERVICES
             C. Local advertising                                                        38,986        38,448
    4.   Total in-kind contributions – services and other assets eligible as NFFS       $61,374       $57,558
    5.   IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS
              C. Federal and public broadcasting sources                                $28,500       $95,500
              D. Fundraising related activities                                         504,936       541,315
              K. State PB agency allocations other than those allowed                          0       39,000
    6.   Total in-kind contributions – services and other assets                       $594,810      $733,373




                                                     10
                                                            EXHIBIT B (cont’d)


                              Annual Financial Report
               For the Period Ending June 30, 2011 and June 30, 2012

Line                                Description              FY 2011       FY 2012

         Schedule E:
         Expenses: (operating and non-operating)

         Program Services:
   1.    Programming and production                          $30,468,906   $34,609,200

   2.    Broadcasting and engineering                          4,338,576     4,771,994

   3.    Program information and promotion                     2,542,498     2,976,501



         Support Services:
   4.    Management and general                                4,373,055     4,923,812

   5.    Fund raising and membership development               7,521,590     7,336,336

   6.    Underwriting and grant solicitation                   3,802,065     3,921,788

   7.    Depreciation and amortization                                 0             0

   8.    Total Expenses                                      $53,046,690   $58,539,631


         Investment In Capital Assets:

   9.    Total capital assets purchased or donated            $1,198,971    $1,240,581

  9.a.   Land and buildings                                     150,931       323,484

  9.b.   Equipment                                              561,334       486,806

  9.c.   All other                                              486,706       430,291

  10.    Total expenses and investment in capital assets     $54,245,661   $59,780,212




                                                     11
                                                                                       EXHIBIT C


                 Summary of Non-Federal Financial Support
           For the Periods Ending June 30, 2011 and June 30, 2012
       Certified by Head of Grantee and Independent Accountant’s Report

Line                               Description             FY 2011           FY 2012


           Summary of Non-Federal Financial Support:
       1   Direct Revenue (Schedule A)                     $42,674,495   $43,982,230
       2   Indirect Administrative (Schedule B)                   0             0
       3   In-Kind Contributions
               a. Services and Other Assets (Schedule C)        61,374        57,558
               b. Property and equipment (Schedule D)              0             0
           Total Non-Federal Financial Support             $42,735,869   $44,039,788




                                                  12
                                                                            EXHIBIT D


                             Scope and Methodology

We performed an examination to determine NYPR’s adherence to the requirements of
the CPB Financial Reporting Guidelines, provisions of the Communications Act, and
CPB grant provisions and certification requirements. The scope of the examination
included reviews and tests of the data reported by the station on its AFR and reconciled
to audited financial statements for the years ending June 30, 2011 and June 30, 2012.

The scope of the audit included tests of the data reported on the AFRs for the fiscal
years ending June 30, 2011 and June 30, 2012. We tested the allowability of FY 2011
$42,735,869 and FY 2012 $44,039,788 of NFFS claimed on NYPR’s AFR by performing
financial reconciliations and comparisons to underlying accounting records (general
ledger) and the audited financial statements. We reviewed the allowability of expenses
that were charged to the CPB grants. Specifically, we reviewed 81 percent of the
$3,253,518 in CSG funds expended during FY 2011 and 49 percent of the $3,171 434
in CSG funds expended during FY 2012, to determine if the expenditures were
allowable in accordance with the terms of the grant.

We reviewed supporting documentation for underwriting agreements, grant agreements,
vendor invoices, and other documentation supporting revenues and expenditures
tested. We also reviewed records and documents supporting the station’s compliance
with the Act requirements to provide advance notice of public meetings, make financial
and EEO information available to the public, operate a CAB, and provide documents
supporting compliance with donor lists and political activities prohibitions. Our
procedures included interviewing station officials and its independent public accountant.

We gained an understanding of internal controls over the preparation of AFRs, cash
receipts, and cash disbursements. We also gained an understanding of NYPR’s
policies and procedures for compliance with certification of eligibility requirements,
Communications Act, and CPB grant agreement terms for allowable costs. We used
this information to assess risks and plan the nature and extent of our testing to conclude
on our objectives. We also tested the effectiveness of controls over payment
authorizations.

Our fieldwork was conducted from February 2013 through August 2013. Our
examination was performed in accordance with the Government Auditing Standards,
July 2007 Revision, for attestation examinations.




                                           13
